      Thames River Bridge Project
Grouting Program Contract Modifications


           Final Report
               Thames River Bridge Project
         Grouting Program Contract Modifications

                           Final Report



                      Report Addl'cssed To:

                       Gary E. Eckenrode
                  Senior Director - Procurement
                     30 th and Market Streets
                     Philadelphia, P A 19104




                        Report Issued By:

   NATIONAL RAILROAD PASSENGER CORPORATION
      OFFICE OF INSPECTOR GENERAL - AUDITS
                 10 G STREET, N.E.
              WASHINGTON, DC 20002

               DATE OF REPORT: June 4, 2009
                REPORT NUMBER: 308-2007



This document shall become available to the public on July 6, 2009
..




                                     Thames River Bridge Project

                             Grouting Program Contract Modifications




                                           Executive Summary



     We completed an audit of contract modification costs submitted by Cianbro Construction
     Incorporated (Cianbro) for pier grouting activities on the Thames River Bridge Span Replacement
     Project in New London, Connecticut. Cianbro is the prime construction contractor hired by the
     National Railroad Passenger Association (Amtrak) for this project. Construction contract,
     C-069-24978, between Amtrak and Cianbro, was modified in order to stabilize two bridge piers that
     began to move during construction. Cianbro's certified grouting program costs, for the cost plus
     modifications, totaled $10,996,068.

     The objective of this audit was to determine whether the cost or pricing data submitted by Cianbro in
     support of the grouting program was accurate, complete, and CUl1'ent. The audit was perfonned at
     Cianbro's facilities in Pittsfield, Maine; Bloomfield Connecticut; and, at the project office in New
     London, Connecticut. The audit scope encompassed all cost accounting and financial infonnation
     necessary to accomplish the audit objective.

     We started this audit in the spring of 2008 by reviewing Cianbro' s first submission of grouting
     program costs totaling $10,938,565. We questioned $376,209 of the original submission due to
     overstated subcontractor material costs, incorrect subcontractor equipment rates, and incorrectly
     allocated direct and indirect labor charges. We discussed the questioned items with Cianbro and
     Amtrak project management. Cianbro agreed to an initial reduction of $290,175 which was removed
     from Cianbro's final certification of grouting program costs.

     We completed the audit in February 2009 after Cianbro submitted its final certified costs for the
     grouting program in the amount of$10,996,068. The results of our audit ofCianbro's final certified
     costs indicated that the $10,996,068 of fmal costs included $86,034, which we had previously
     questioned. The $86,034 represents the amount of subcontractor overbilling for incOlTect equipment
     rates. As a result, we are recommending that Amtrak seek an additional price reduction for the
     grouting program in the amount of $86,034.
                                  Thames River Bridge Project
                            Grouting Program Contract Modifications
                                                Final Report # 308-2007

                                            TABLE OF CONTENTS

                                                                                                                            PAGE

I.         BACKGROUND ................................................................................................... 1

II.        OBJECTIVE ......................................................................................................... 1

III.       SCOPE ............................................................................ ;...................................... 1

IV.        SPECIAL CIRCUMSTANCES AFFECTING THIS EVALUATION............ 2

V.         METHODOLOGY ............................................................................................... 2

VI.        EVALUATION OF INTERNAL CONTROLS ................................................. 3

VII.       PRIOR AUDIT COVERAGE .............................................................................. 3

VIII. FINDINGS AND RECOMMENDATIONS ....................................................... 3

Appendix A: ....................................................................................................................... 5
                               Thames River Bridge Project
                         Grouting Program Contract Modifications
                                Report Number 308-2007


 I.     BACKGROUND

In September 2005, the National Railroad Passenger Corporation (Amtrak) executed
contract number C-069-24978 with Cianbro Construction Incorporated to replace the
movable span on the Thames River Bridge in New London, Connecticut. Due to an
emergency situation, Amtrak modified the contract to add a grouting program designed to
stabilize two bridge piers that unexpectedly started to move during construction. Pier
movement had to be corrected in order properly support the new movable span. The
grouting program was developed by Mueser Rutledge Consulting Engineers, a
subcontractor to Washington Group International Incorporated (WGI), Amtrak's
construction manager for the project. Amtrak added the grouting program to the contract
in November 2006; approving Modification number C-005-PS for $4,806,869. Four
additional modifications were subsequently approved, resulting in a total grouting
program not-to-exceed amount of$11,089,625.11. The grouting program delayed the
bridge construction completion date from February 28,2008 to September 19, 2008.

A clause included in Amtrak's contract with Cianbro entitled "Changes in the Work"
(Section 41.8) requires the prime contractor and subcontractors to certify that the cost or
pricing data submitted in support of a modification is accurate, complete, and
current. This clause also states that in the event that the contractor certified cost or
pricing data is subsequently found to be inaccurate, incomplete, or not current, Amtrak is
entitled to a reduction in the modification price equal to the difference between the
modification price and the price that the change order would have been, had the
contractor submitted accurate, complete, and current data.

II.     OBJECTIVE

The objective of this audit was to determine if the Cianbro's submitted cost data for the
grouting program was accurate, complete and current.

III.    SCOPE

The scope of our audit encompassed the costs for the five contract modifications for the
Thames River Bridge grouting program. A Cianbro official certified final grouting costs
of$10,996,068 as accurate, current and complete on February 12,2009. The grouting
program took place during 2007. The audit scope encompassed all cost accounting and
financial information necessary to accomplish the audit objective.

We conducted this performance audit in accordance with generally accepted govelnment
auditing standards. Those standards require that we plan and perfOl1ll the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

                                             1
                               Thames River Bridge Project
                         Grouting Program Contract Modifications
                                Report Number 308-2007

 IV.    SPECIAL CIRCUMSTANCES AFFECTING THIS EVALUATION

 On Apri123, 2008, Amtrak's construction manager, WGI, provided us a technical
 evaluation as to the quantitative and qualitative aspects of Cianbro's submitted grouting
 program costs. WGr summarized its opinion by stating, "WGI confirms that all the
 amounts and quality of the labor, equipment and material for the submitted costs were
 necessary to perform the required grouting program."

However, the audit found that Cianbro did not adhere to contract provisions for
equipment charges. Cianbro billed Amtrak more than $1.9 million for roughly 100
pieces of equipment. The general provisions section 42.5(c) of the contract required
Cianbro to bill Amtrak equipment charges based on the actual hours that the equipment
was used on the grouting program. Cianbro did not bill actual hours, and instead, billed
Amtrak an amount equal to 40 hours per week for the equipment assigned to grouting
program. In discussing this issue with Amtrak on-site representatives we leamed that
there was an informal agreement between Cianbro and Amtrak that allowed Cianbro to
deviate from the contract provision which required the billing of actual equipment hours.
Amtrak representatives stated that the project benefited from this agreement because
some of the equipment was used 24 hours per day for 7 days per week, and that
equipment oveliime hours were not billed to Amtrak. Amtrak contracting personnel also
believe that the project benefitted from the informal agreement.

We are not recommending any adjustments relating to the quantitative aspects to the
equipment charges due to the fact that we could not determine actual hours used for each
piece of equipment; together with the fact that Amtrak management and construction
manager representatives believe that Amtrak benefited from the 40 hour per week
agreement.

V.      METHODOLOGY

 Our methodology included a review of documentation submitted in support of the
claimed costs, as well as, interviews of Amtrak project personnel and Cianbro
representatives. The audit was perfonned in two phases. We started this audit in the
spring of 2008 by reviewing Cianbro' s first submission of grouting program costs
totaling $10,938,565. We questioned $376,209 ofthe original submission due to
overstated subcontractor material costs, incorrect subcontractor equipment rates, and
incorrectly allocated direct and indirect labor charges. We discussed the questioned
items with Cianbro and Amtrak project management. Cianbro agreed with $290,175 of
the questioned costs and removed this amount from its final certification of grouting
program costs.

We completed the audit in February 2009 after Cianbro submitted its final certified costs
for the grouting program in the amount of $10,996,068.



                                            2
                              Thames River Bridge Project
                        Grouting Program Contract Modifications
                               Report Number 308-2007

VI.     EVALUATION OF INTERNAL CONTROLS

We did not review Cianbro' s system of internal controls. We concluded that the audit
objective could be achieved more efficiently by perfonning substantive audit testing.
However, we perfonned sufficient audit work to determine that Cianbro's cost
accounting system provided adequate segregation of costs for the grouting program £i'om
costs incurred for the base contract.

VII.    PRIOR AUDIT COVERAGE

The Office ofInspector General completed an audit ofa $299,819 contract modification
(Audit Report Number 306-2006) which was executed to perform concrete borings
needed to evaluate bridge piers. Cianbro's submitted cost data for the concrete boring
modification was not considered entirely accurate, complete, or cutTen!. We questioned
$16,000 which included overstated material, labor, equipment, and subcontractor costs.

VIII. FINDINGS AND RECOMMENDATIONS


Finding 1      Cianbro's Submitted Cost or Pricing Data Include
               Questionable Subcontractor Equipment Costs

Discussion

Cianbro certified final grouting program costs of $1 0,996,068 in February, 2009. The
submitted amount was not considered entirely accurate, complete, or current as required
by General Provisions Section 41.8 since it included subcontractor non-discounted
equipment charges resulting in an overcharge of$86,034.

Our earlier review of Cianbro's May 2008 cost submission of$10,938,565 identified
$376,209 of audit adjustments. Cianbro agreed with $290,175 of these adjustments and
eliminated them from their February, 2009 final certified submission of$10,996,068.
However, $86,034 of questioned costs related to overstated subcontractor equipment
charges are included in Cianbro's final submission. As a result, it is our opinion that
Amtrak is still due a price reduction of$86,034 £i'om Cianbro's final submittal of
$10,996,068. Details of the recommended adjustments are presented in the Appendix of
this report.

Recommendation

Amtrak should pursue a price reduction in the amount of $86,034.00 from Cianbro's
submitted grouting program price of $10,996,068.00 in accordance with contract general
provisions section 41.8.


                                           3
                                  Thames River Bridge Project
                            Grouting Program Contract Modifications
                                   Report Number 308-2007


 Management Response:

  The Contracting Agent, Procurement and Materials Management responded to the draft audit
. repOlt stating that "An exception is taken to an additional price reduction of $86,304.00 for the
  subject grouting program." Several documents were attached to mimagement's response
  explaining rationale for this exception taken.

 One ofthe attaclunents contained a detailed analysis of Judy Company's actual equipment usage
 on the grouting program indicating that Judy did not invoice Cianbro for all of the hours that the
 equipment was used and had Judy done so; the costs would have been approximately $179,000
 more than hilled which would more than offset the $86, 304.00 questioned costs. Another
 attachment indicated that the     percent equipment rate reduction requirement contained in
 Cianbro's contract with Amtrak would not apply to Judy since "Judy (Subcontractor) was not
 even a party to the initial Contract with Cianbro (the prime) at the time the contract was awarded.
 Therefore, no flow down Contract provisions existed at the time between Cianbro and Judy."

 Auditor's Conclusion:

After considering management's response we believe that the finding should stand. It is our
opinion that clauses in the prime contract should flow down to any subcontractors that are
subsequently employed by the prime contractor regardless of when the prime and subcontractors
enter into their agreements. It is also our opinion that the prime contractor has a responsibility to
ensure that any subcontractors brought onto the project comply with the provisions of the prime
contract. It should be noted that Judy complied with all other aspects of the contract equipment
provisions except for the     percent equipment rate reduction. As a result, we recommend that
Amtrak attempt to leverage Judy's noncompliance with the equipment rate reduction when
negotiating a final settlement. With regards to Judy's underbiIling of hours, we can only state
that we have no evidence that wonld lead us to conclude that Judy is not entitled to the additional
hours, however, it should be noted that Judy had the opportunity to submit these costs in the
course ofthe project.

This concludes our report.


Audit Staff:

                 . Supervisor - Audits




X~.oyw;ega;
Senior Director - Audits




                                                  4
                              Thames River Bridge Project
                        Grouting Program Contract Modifications
                               Report Number 308-2007


                                     Appendix A:

                   Gmuting Program Contract Modifications
                       Analysis of Modification Price


                       Cianbro                                  Recommended

  Element          Submitted Costs            Questioned

Direct Material

Direct Labor

Labor Indirect Costs

Cianbro Equipment


Subtotal

Overhead@

Subtotal

Profit @: .


Cianbro Own Costs         . '. ,



Subcontractor Costs                            81,937.00                      2

Mark-up on Subs @                               4,096.85                      3

Rental Equipment

Totals                                        $86.033,85   S-                 1

* off by $.01 due to rounding

                                          5
                              Thames River Bridge Project
                        Grouting Program Contract Modifications
                               Report Number 308-2007



Notes:

1. Cianbro's final certified submitted price for the grouting program of$10,996,067.61
does not include the following items which were identified in an earlier submission.
Cianbro agreed to reduce their costs by $290,174.90 as follows:

           Unallocable Material (PerfOlmance Bond)            $74,208.00
           Overstated Extended Overhead Labor                  25,564.64
           Labor Indirect Costs                                17.935.51
           Overhead
           Profit
           Overstated Subcontracts                           152,231.00
           Mark-up
                                Total                       $290.174.90


 2. Cianbro's contract with Amtrak requires that equipment charges be computed using
rates published in the Rental Rate Blue Book. The contract calls for the published
 monthly/hourly rates to be discounted by percent. Our analyses indicated that Cianbro
complied with the equipment rate computation clause and discounted published rates by
    percent; however its subcontractor (Judy Company) did not comply with this
requirement and charged 100 percent of the hourly rates to the grouting program.
Although Judy's contract with Cianbro did not specifically address the     percent
equipment rate discount; Judy's contract required all work performed be in accordance
with Cianbro's contract with Amtrak. Cianbro agreed that Judy did not discount
equipment rates per contract telms, however Cianbro stated that Judy did not bill for
equipment overtime hours which would offset the failure to discount the blue book rates.
(It should be noted that Cianbro did not bill Amtrak for overtime equipment hours for
grout work either; however, Cianbro did discount the equipment blue book rates per
contract terms.) Neither Cianbro nor Judy Company provided equipment documentation
to prove any offset. Therefore, we continue to question these costs.

 3. The submitted costs were based on applying the {, mark-up rate per contract terms
to submitted subcontractor costs. The cost questioned amount of $4,096.85 represents
the difference between the submitted amount of               and audit recommended
subcontractor amount of S             derived by applying the contract mark-up tate to
audit recommended subcontracting amount.




                                           6
